No. ______
CERTIFICATE OF SERVICE
PATRICIA NELSON, Next friend of N.K., a minor, Petitioner
v.
ESTEBAN RIVERA, Respondent.
Pursuant to Rule 29 of this Court, I hereby certify that I am a member
in good standing of the bar of this Court and that on this 26th day of
August, 2020, the Petition for a Writ of Certiorari in the above-captioned
case was served electronically, as permitted by the Supreme court’s
April 15, 2020 Order, on the following, who has consented to electronic
service:
C. Marcel Stoetzel III
City Attorney’s Office
10 N. Division Street Ste. 207
Battle Creek, MI 49014
cmstoetzel@battlecreekmi.gov
/s/ Christopher J. Trainor
Attorney for Petitioner

